<html>
<title> - FIRSTGOV.GOV: IS IT A GOOD IDEA?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



                    FIRSTGOV.GOV: IS IT A GOOD IDEA?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 2, 2000

                               __________

                           Serial No. 106-271

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                   U.S. GOVERNMENT PRINTING OFFICE
74-926                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                         Randy Kaplan, Counsel
                           Bryan Sisk, Clerk
                    Trey Henderson, Minority Counsel
 

                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 2, 2000..................................     1
Statement of:
    Barram, David, Administrator, General Services Administration    10
    Bohannon, Mark, general counsel and vice president, Software 
      and Information Industry Association.......................    80
    Brewer, Eric, founder and chairman, the Federal Search 
      Foundation, co-founder and chief scientist, Inktomi Corp...    18
    Katzen, Sally, Deputy Director for Management, Office of 
      Management and Budget......................................     3
    McClure, David, Director, Information Technology Management, 
      U.S. General Accounting Office.............................    25
    McDermott, Patrice, information policy analyst, OMB Watch....    40
Letters, statements, etc., submitted for the record by:
    Barram, David, Administrator, General Services 
      Administration, prepared statement of......................    14
    Bohannon, Mark, general counsel and vice president, Software 
      and Information Industry Association:
        Letter dated June 23, 2000...............................    81
        Prepared statement of....................................    87
    Brewer, Eric, founder and chairman, the Federal Search 
      Foundation, co-founder and chief scientist, Inktomi Corp., 
      prepared statement of......................................    20
    Fleisher, Michael D., CEO, Gartner, prepared statement of....   111
    Katzen, Sally, Deputy Director for Management, Office of 
      Management and Budget, prepared statement of...............     5
    McClure, David, Director, Information Technology Management, 
      U.S. General Accounting Office:
        NASIRE study.............................................   120
        Prepared statement of....................................    28
    McDermott, Patrice, information policy analyst, OMB Watch, 
      prepared statement of......................................    43

 
                    FIRSTGOV.GOV: IS IT A GOOD IDEA?

                              ----------                              


                        MONDAY, OCTOBER 2, 2000

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn and Turner.
    Staff present: J. Russell George, staff director/chief 
counsel; Randy Kaplan, counsel; Ben Ritt, professional staff 
member; Bonnie Heald, director of communications/professional 
staff member; Bryan Sisk, clerk; Elizabeth Seong, staff 
assistant; George Fraser, Rachael Reddick, and Trevor Pedigo, 
interns; Trey Henderson, minority counsel; Jean Gosa, minority 
clerk; and Michelle Ash, minority professional staff member.
    Mr. Horn. A quorum being present, this hearing of the 
Subcommittee on Government Management, Information, and 
Technology will come to order.
    On Friday, September 22nd, the President unveiled FirstGov, 
a centralized Web site that allows anyone with a computer and 
modem to one-stop shop for information on the government's 27 
million Web pages.
    By accessing FirstGov located at www.FirstGov.gov, computer 
users can locate a wealth of government information and 
services. A single search can produce information on subjects 
from Social Security benefits to the latest advances in health 
care. Businesses can find the government's most recent 
procurement opportunities, and prospective applicants can 
search for Federal grants. By the end of this year, nearly 40 
million Americans will communicate with the government 
electronically. That demand will undoubtedly swell as even more 
people join the information age.
    FirstGov is an important step in making government 
information and services available to the public 7 days a week, 
24 hours a day. FirstGov and electronic government in general, 
offer the potential to revolutionize the way citizens and 
businesses interact with their government. The benefits of this 
instant communication are plentiful, but the challenges are 
equally profound.
    To be successful, government information must be current, 
well-organized and readily accessible. Citizens and businesses 
should expect government Web sites to offer the same quality 
and service found on many business Web sites. They must be 
confident that their on-line communications are secure and that 
personal information is fully protected. The government's 
electronic infrastructure must be planned and managed carefully 
to avoid risking the loss of billions of taxpayer dollars.
    Equally important, we must bridge the digital divide so 
that all citizens have access to this new electronic 
environment.
    The FirstGov Web site uses technology developed by Dr. Eric 
Brewer, who is co-founder of Inktomi--and I don't know how fast 
I am to say that, or do I spell out each syllable? Which is it?
    Mr. Brewer. You got it right. Inktomi.
    Mr. Horn. Inktomi Corp., and a professor of computer 
science at the University of California, Berkeley.
    Dr. Brewer, who is with us today, has offered his search 
technology to the FirstGov project at no cost for 2 years.
    Dr. Brewer, I understand you flew all night from Japan to 
be with us, and I welcome you and thank you. I am looking 
forward to learning more about this new project and its 
potential for providing citizens with a greater opportunity to 
communicate with their government.
    I welcome all of our witnesses today, look forward to your 
testimony; and I now yield time to the ranking member, the 
gentleman from Texas, Mr. Turner, for an opening statement.
    Mr. Turner. Thank you, Mr. Chairman.
    FirstGov is the first-ever government Web site to provide 
the public with easy, one-stop access to all on-line Federal 
Government resources. This site will bring government closer to 
the people, expand the reach of our democracy and make 
government more consumer friendly.
    Launched on September 22, 2000, FirstGov allows users to 
browse a wealth of information, everything from researching at 
the Library of Congress to tracking a NASA mission. It also 
enables users to conduct important business on-line, such as 
applying for student loans, tracking Social Security benefits, 
comparing Medicare options and administering government grants 
and contracts. It is expected that this monumental breakthrough 
in one-stop shopping for government services will help 
Americans across the country and around the world find 
information and resources quickly and easily.
    As an advocate of e-government, I commend the 
administration for making this effort; and I am pleased to see 
FirstGov.gov up and running. The Internet offers us 
unparalleled opportunities to literally put government at the 
fingertips of the citizens. While the private sector has been 
quick to capitalize on the new opportunities created by the 
digital revolution, it is widely acknowledged that the Federal 
Government is behind the curve.
    Projects like FirstGov.gov show that we are making an 
effort to head in the right direction. Hopefully, this is just 
the first of many steps the Federal Government will be making 
in order to ensure that 1 day ``dot gov'' is as commonplace as 
``dot com.''
    Again, I commend the chairman on holding the hearing to 
bring this important step forward to the attention of the 
American people, and I welcome each of our witnesses who have 
come here this morning.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you very much.
    The tradition of the committee on Government Reform and its 
subcommittees is to swear all witnesses as to the knowledge 
they give us. So if you will stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all the witnesses have 
affirmed.
    We will now start with the Honorable Sally Katzen, Deputy 
Director for Management, Office of Management and Budget.

  STATEMENT OF SALLY KATZEN, DEPUTY DIRECTOR FOR MANAGEMENT, 
                OFFICE OF MANAGEMENT AND BUDGET

    Ms. Katzen. Mr. Chairman, Mr. Turner, I am delighted to be 
here again.
    FirstGov, the Federal Government's new and most 
comprehensive Web portal, is a timely and important topic for 
the government and the Nation; and we are glad that you 
convened this hearing to explore its great potential so soon 
after it was launched.
    As the chairman noted, FirstGov is a piece of a much larger 
effort of this administration to bring the American people 
electronic government. Much of my written testimony is devoted 
to the administration's work in this area, but in the interest 
of time, let me move to the specific subject of this hearing.
    Last December, the President issued a memorandum on 
electronic government. It called for the establishment of a 
one-stop gateway to government information available on the 
Internet, organized by the type of service or information that 
people are seeking rather than by the agency. That is FirstGov.
    But the roots of FirstGov predate that memo. For several 
years now, a dedicated team at GSA has been doing the spade 
work on what was then known as WebGov. The President's memo 
accelerated the process. In the very early spring, the 
President's Management Council gave it enthusiastic support.
    Shortly thereafter, we were approached by Internet 
entrepreneur Eric Brewer with the offer of a powerful search 
engine and data base that he would develop. That offer was a 
major catalyst in bringing all government information together 
in a way that the American people can find quickly and easily. 
We chose the name FirstGov to signify the citizens' first click 
to electronic government.
    In June 2000, the President announced FirstGov in his 
first-ever Webcast address to the Nation, challenging 
government and industry to finish creating it in 90 days. 
Exactly 90 days later, some would say in Internet time, the 
President announced the launch of the site.
    The site, located at www.FirstGov.gov, provides a single 
on-line portal that connects Americans to one of the largest 
and most useful collections of Web pages in the world. It 
allows users to search all 27 million Federal agency Web pages 
at one time, and it has plenty of room to grow because it can 
search half a billion documents in less than a quarter of a 
second and handle millions of searches a day. This is somewhat 
mind-boggling but true.
    Both the Director of OMB and I have given special attention 
to this project, and I sit on the governing board of FirstGov. 
GSA Administrator Dave Barram will give more details on some of 
the arrangements.
    The initial response to FirstGov has been largely 
favorable. Initial estimates show that during the first 4 days, 
about a quarter of a million people visited the site. More 
interesting, Web traffic at various agency sites increased with 
the launch of FirstGov. The Department of Transportation 
reported a large increase and also cross-agency sites, 
including disability.gov, reported a nearly threefold increase.
    In addition, the on-line customer feedback we received is 
widely supportive. Of roughly 700 messages received by FirstGov 
in its first week, the vast majority were both supportive of 
the site and excited about the opportunity to make the site 
better through their comments.
    Finally, to demonstrate the support for FirstGov among IT 
professionals, there was a conference last week of State CIOs, 
Chief Information Officers, and the States said they thought 
FirstGov was a tremendous advance and asked how they could work 
with us to become a part of it.
    FirstGov is, in my mind, a revolutionary step in the way 
this government provides information and services. A visitor 
need not know what agency provides student loans to get 
information on student loans. The search engine as well as the 
topic directory can provide this. And FirstGov partners may 
offer yet a third way to access the information in a way that 
fits the user's needs.
    Moreover, the site will get better over time. The search 
engine will learn which pages are the most useful to the 
citizens and display them more readily. The topic index will 
grow and encompass those sites most commonly looked for and 
accessed by the public. Ultimately, as agencies put more 
information on-line, FirstGov will be the catalyst for 
additional agency and cross-agency portals that continue to 
break down the existing stovepipes and lead to a real 
transformation in the way the government delivers information 
and services.
    Most importantly, citizen feedback will lead our efforts to 
make our information and services more available on-line. The 
public will point our way, and through their direction we will 
give them a comprehensive and responsive electronic government 
that expands opportunities for their participation in our 
democracy.
    Thank you very much for the opportunity to talk about 
FirstGov and for your support in this area. I look forward to 
answering your questions.
    [The prepared statement of Ms. Katzen follows:]

    [GRAPHIC] [TIFF OMITTED] T4926.001
    
    [GRAPHIC] [TIFF OMITTED] T4926.002
    
    [GRAPHIC] [TIFF OMITTED] T4926.003
    
    [GRAPHIC] [TIFF OMITTED] T4926.004
    
    [GRAPHIC] [TIFF OMITTED] T4926.005
    
    Mr. Horn. Our next witness is the Honorable David Barram, 
the Administrator of the General Services Administration. Mr. 
Barram.

  STATEMENT OF DAVID BARRAM, ADMINISTRATOR, GENERAL SERVICES 
                         ADMINISTRATION

    Mr. Barram. Thank you very much, Mr. Chairman, Mr. Turner. 
I want to add my appreciation to you for providing this 
opportunity to explain the power of the elegantly simple idea 
that is FirstGov. I believe FirstGov is a singular achievement 
and one that will keep getting better--in fact, it must get 
better.
    This administration has been devoted to making a government 
that works better and costs less. I believe we have done that. 
In that context, we had to do FirstGov. By now, the American 
people have come to expect that kind of productivity of us.
    In my comments today I would like to briefly describe the 
three modules of FirstGov and then explain the least well-
developed and least well-understood part of the FirstGov 
partners.
    The first module, and most visible, is the main portal 
called FirstGov.gov. Behind that portal is the second module, a 
powerful searching and indexing technology provided to us by 
Fed-Search, the foundation created by Dr. Eric Brewer. The 
third module is our idea of offering continuous, direct access 
to the index behind FirstGov to a cadre of interested FirstGov 
partners, rather than giving it to ourselves as a proprietary 
government resource.
    The FirstGov.gov portal was developed by the government 
following the letter and spirit of all competitive procurement 
processes using a fixed-price contract and, as Sally said, in 
90 days--an amazingly short 90 days. When you sign on to 
FirstGov.gov, up comes this simple, elegant, easy-to-look-at, 
mainly blue and white page that has already received accolades 
in focus groups and through feedback directly to FirstGov. It 
invites you to find what you want in the way you want and when 
you want it because it is open 24 hours a day.
    You can click on a topic, such as learning, and get to a 
page with a whole list of excellent government Web sites about 
learning. You can click on Congress and get to Thomas or to the 
House Web sites. You can click to a site where you can be 
directed to State and local government sites.
    You can click to one of the periodically changing featured 
sites. Right now, we are featuring ``severe weather'' and 
``school stuff.'' Or you can decide you just have to say 
something to your government to give us feedback, and if you 
want to search by keyword we have a comprehensive index waiting 
for your search query.
    That index was built by Dr. Eric Brewer's Fed-Search 
Foundation. A few people seem to be skeptical of the Fed-
Search-government relationship. I would like to see us get over 
that, and soon. Eric Brewer is here today, and you can hear the 
Fed-Search story directly from him.
    Eric Brewer and Dave Binetti, who is the president and CEO 
of Fed-Search, have been magnificent partners throughout this 
effort. At every turn when we presented them with one more need 
of government, they gave it to us because they wanted to do 
this right and wanted to be sure that it was above reproach. 
Those who subscribe to the ``don't believe what I say until you 
see what I do'' credo will like Eric Brewer. He is what he said 
he was, a private citizen simply interested in giving a gift, a 
very generous gift, to his country, a gift that will help 
strengthen our democracy.
    Fed-Search uses the Inktomi technology to do its searching 
and index. In a few weeks, they spidered--searched--all 
publicly available government Web pages and indexed the 27 
million pages. Fed-Search will keep the index updated.
    The third part of FirstGov is the FirstGov partner idea.
    As we were developing FirstGov we knew that most Internet 
users had a favorite portal, or a small group of portals, they 
almost always used. Something like 85 percent of users navigate 
the Web via the big three--Yahoo, AOL, NetScape or MSN. In 
addition, there are over 200 other portals serving the 
increasingly large base of regular users. These portals have 
flourished because they innovate and provide a service to their 
customers. They get their customers the information they want, 
their customers want, in the way they want it, at the speed 
they want it; and the portals that survive will survive because 
they get better and better.
    So we figured we should design FirstGov to be attractive to 
these successful portals and thereby allow our ultimate 
customers, the American citizens, more choice. We believe 
FirstGov.gov is good, and we plan to keep it at the state-of-
the-art. But citizens are used to picking from their own 
personal views of the best. They should have that choice, 
rather than being forced to use only the government-provided 
site if they want quick access to all government information.
    We had some conditions, though. These conditions resulted 
directly from concerns some citizens have expressed about the 
``wild west'' character of the Internet. One condition is that 
citizens should have free first use of all government 
information. The Fed-Search index has all the publicly 
available government pages, all 27 million pages. Through 
FirstGov, the first use of government information will be free 
to all citizens.
    Another condition is that no individual can be tracked 
while browsing government pages. We require that security must 
be excellent, and there can be no advertising on pages 
displaying government Web sites. You get all that when you log 
on to FirstGov.gov, and that's what we will require of any 
FirstGov partner's portal.
    All these things led us to the idea to allow other portals, 
public and private, to become FirstGov partners. We would like 
them and, therefore, their customers to have access to the 
results of a search in Fed-Search should they so choose, rather 
than being forced to rely exclusively on their own proprietary 
and incomplete data bases.
    When you want to search for government information on 
FirstGov, there are four ways to go.
    One is the most obvious. Any portal, whether or not a 
partner, can point to the FirstGov URL and when the user clicks 
that user is transported to the FirstGov.gov portal. That's the 
same as if you typed in the URL on any browser.
    The other three are simply three ways any independent 
portal can join the FirstGov world and demonstrate to its 
customers that it subscribes to a basic set of principles 
governing the privacy and quality of those accessing government 
information. The independent portal benefits by being able to 
provide better service to its customers, the FirstGov brand 
benefits by having more people know about and use it, and the 
American people benefit by knowing they can count on certain 
safeguards while navigating government information.
    In the three models, each portal agrees to the FirstGov 
conditions. Along with the protections, the agreement provides, 
it sets a high standard for access to government information 
and transactions that benefit all involved.
    In the first of the three models, the bronze model, the 
portal puts a FirstGov logo, or words, with a link to FirstGov 
on the portal site. Clicking there takes the user directly to 
the FirstGov.gov page, the government page, and she proceeds as 
if she had come there originally. This level of partnership is 
at no cost to the partner.
    The second model, silver, has a FirstGov search box, where 
the user can enter a word or words directly from the partner's 
page, with the promise of a keyword search. The keyword is 
processed by Fed-Search, and results are returned to the user 
on a FirstGov page displayed on the user's PC. Now the user is 
in FirstGov, the government portal. This service is free from 
Fed-Search. There is no cost to the partner.
    In the third model, gold, the portal displays the search 
box as though it were on the portal's own--as though it were 
the portal's own search box. When the results are returned, 
they appear as though they were on the portal's own search 
return page. The portal retains the option to advertise on the 
search return page, providing a revenue stream for the portal. 
But let me be clear. When the user then clicks to the 
government site from that portal, that user is now in the 
government site and all those conditions that government sites 
have prevail.
    For this industrial-strength access and customized 
formatting, the portal pays Fed-Search a nominal charge to 
process the search, a sum designed to simply cover costs. The 
portal provides its own bandwidth to Fed-Search, and Fed-Search 
provides proprietary software, engineering support and training 
to the portal, guaranteeing optimal performance of the portal. 
The portal still adheres to FirstGov principles.
    As of Friday--and in my testimony I think I have 178 
companies--that number is now 226, I believe, companies and 
nonprofits have already shown serious interest in becoming 
FirstGov partners. They know the conditions, and they see the 
value. We are pleased because we feel this validates our 
initial thinking that offering access to the index could result 
in innovative, new, citizen-centric business models that were 
not previously feasible.
    The FirstGov partners program is not a mystery. It is just 
what I described and has been for weeks. When we first 
introduced the idea, we listened to the concerns and excitement 
from all quarters and have responded by modifying the 
partnership concept and conditions substantially to make it the 
best we could.
    Mr. Chairman, I consider this a proud moment for the 
Federal Government. I hope you do, too. In just a week, 
FirstGov has captured the imagination of tens of thousands of 
people. By now, citizens have likely made over a million visits 
to the FirstGov.gov portal. Many have told us how much they 
like it and a few things we should get better at.
    Thank you again for your constant attention to the efforts 
of so many to making a better government. It makes it easier 
for people to do what they need to do and uses their money 
wisely.
    Mr. Horn. Is that the statement?
    Mr. Barram. That's my statement.
    [The prepared statement of Mr. Barram follows:]

    [GRAPHIC] [TIFF OMITTED] T4926.006
    
    [GRAPHIC] [TIFF OMITTED] T4926.007
    
    [GRAPHIC] [TIFF OMITTED] T4926.008
    
    [GRAPHIC] [TIFF OMITTED] T4926.009
    
    Mr. Barram. I would like to do a quick little demo.
    Mr. Horn. All right. Go ahead.
    I want to ask Ms. Katzen, you have to leave when?
    Ms. Katzen. 11:05.
    Mr. Horn. OK. 11:05. Because I want to make sure we have 
enough for 20 minutes of questioning before you leave. So I 
will have to interrupt some of the presenters, but go ahead, 
Mr. Barram.
    Mr. Barram. Let me take just a minute.
    What you see up on the screens on the two sides of you, and 
up front you can see it on yours, is a picture of the FirstGov 
page. I trust many of you have already seen it. It looks good, 
and it is very functional.
    Do something, Bill, anything.
    He just typed in the words ``Social Security,'' and up came 
a list of results. He is clicking on the first one, and it 
takes you to the Social Security page and the top 10 most 
requested services from Social Security on-line. So click, 
click and we were there.
    Now he is back at the FirstGov home page. He clicked on 
featured subject under severe weather and got to the second 
page under severe weather and is looking for Hurricane Keith, I 
think.
    This is a NOAA page, National Hurricane Center. So we are 
into the Department of Commerce's NOAA's page now, and there it 
is. It is still down there circling around the Yucatan, not a 
place to be.
    We could do 2 hours of this. That's enough. You get the 
idea. We will have it available. If there are other questions 
you can ask about, we can find it. Find out how many times you 
are listed, Mr. Chairman, in the government Web pages.
    Mr. Horn. Just so they aren't in Federal prison pages.
    Dr. Brewer, it is a great pleasure to have you here. You 
have a very distinguished record. Please make your 
presentation, and that will help round out on the positive 
side.

  STATEMENT OF ERIC BREWER, FOUNDER AND CHAIRMAN, THE FEDERAL 
  SEARCH FOUNDATION, CO-FOUNDER AND CHIEF SCIENTIST, INKTOMI 
                             CORP.

    Mr. Brewer. Thank you, Mr. Chairman and Mr. Turner. I am 
really glad to have this opportunity to speak to you today 
about the Federal Search Foundation.
    The free flow of information is a basic tenet of American 
government. Freedom of speech, our judicial system and even the 
basic principles of capitalism all revolve around the free flow 
of information. The Internet is the greatest tool for this flow 
in the history of the world; and, as such, it can be the most 
potent ally for the citizens since the Constitution itself.
    The mission of the Federal Search Foundation is not just to 
build a government search engine but rather to catalyze an 
Internet-enabled government. We seek to empower citizens with 
comprehensive, unbiased information and interactive services 
that make government more responsive to the public. The 
creation of a comprehensive search engine and its inspiration 
of the FirstGov portal are the first steps toward this goal.
    Early in my career as a faculty member at UC Berkeley, I 
received Federal assistance in the form of a DARPA research 
grant. This grant led to novel search technology, which led to 
Inktomi, an Internet infrastructure company, and then led to 
the Federal Search Foundation. Thus, in creating the 
Foundation, I am giving something back while I also hope to 
promote truly American values of open, participatory democracy. 
In fact, I hope my whole generation of Internet entrepreneurs 
finds equally meaningful ways to give back to society.
    But, by design, the gift is only a catalyst. The FirstGov 
site was not built by me, nor by Inktomi, nor by Fed-Search. It 
was built by the government itself, which is the only reason 
that FirstGov is an important step toward an Internet-enabled 
government.
    The effects of this catalyst continue to grow. In addition 
to the FirstGov site, we have seen increased focus by all three 
branches on their Internet presence, an increase in the quality 
of government sites, and an increase in traffic and feedback. 
The feedback has been overwhelmingly positive. In fact, much of 
the feedback thanks us for sites that existed before FirstGov, 
such as the NOAA site. We simply brought them to the public.
    I hope that others, private and public, will continue the 
momentum and put their own government-related services on-line, 
leading to the same kind of diversity that we see for 
television, radio, and print media. In fact, the Fed-Search 
Foundation hopes that our mission as catalyst will be complete 
in a few years and that we can simply cease to exist. To me, 
the most valuable and personally rewarding part of the gift is 
the confidence it gave Federal employees that they could build 
a great site and that they could do it on Internet time.
    The Internet is a deeply American phenomenon, not because 
of its origin but because it reflects our values. It is the 
ultimate expression of freedom of speech, it is fundamentally 
open, and it has transformed our economy in the classic 
American way, by enabling individuals to achieve their dreams 
through inspiration and hard work.
    I am fortunate to be one such American. I am honored to be 
able to give something back. But, I am even more honored to be 
able to help the government achieve the kind of deep 
understanding and use of the Internet that will promote these 
values well beyond the information age.
    Thank you for your time.
    Mr. Horn. We thank you again, Dr. Brewer. That's very 
generous of you, and we will get into some of those questions.
    [The prepared statement of Mr. Brewer follows:]

    [GRAPHIC] [TIFF OMITTED] T4926.010
    
    [GRAPHIC] [TIFF OMITTED] T4926.011
    
    [GRAPHIC] [TIFF OMITTED] T4926.012
    
    [GRAPHIC] [TIFF OMITTED] T4926.013
    
    [GRAPHIC] [TIFF OMITTED] T4926.014
    
    Mr. Horn. Our next presenter, as we always have at these 
hearings, the very able staff of the U.S. General Accounting 
Office. So we have this morning David McClure, the Director of 
Information Technology Management of GAO. Dr. McClure.

 STATEMENT OF DAVID MCCLURE, DIRECTOR, INFORMATION TECHNOLOGY 
           MANAGEMENT, U.S. GENERAL ACCOUNTING OFFICE

    Mr. McClure. Mr. Chairman, Mr. Turner, it is a pleasure to 
be here.
    FirstGov represents, I think, an important milestone in 
evolving toward Federal electronic government. There is no 
question about that. Portals like this are being used with 
increasing frequency at all levels of government.
    As is evident from some of the information searches that 
have been presented this morning and in some of the testimonies 
that are being presented to you today, FirstGov is not yet 
overly context sensitive. As is the case with commercial 
Internet searches, the queries on FirstGov can yield hundreds 
and even thousands of URL references, some of which may not 
necessarily be relevant to the information or services that the 
user is looking for.
    However, I think it is very important to point out that the 
capability, the search capability, is not the end game for 
FirstGov. It is an evolving concept, and we would expect many 
opportunities to emerge for increasing the capability and the 
functionality of this site.
    Not all issues associated with running FirstGov today and 
on a permanent basis have been settled, and I just want to 
briefly mention four of those issues to you.
    The first of them deals with maintaining the security of 
the FirstGov Web site itself. Computer and network 
vulnerabilities swell to immense proportions in the Internet 
age. The opportunities to create and cause problems for the 
site accentuate the need for careful, coordinated information 
security planning.
    Based on the available information and discussions we have 
had with GSA, FirstGov representatives and even representatives 
from Inktomi, there are good security measures that have been 
put in place for the FirstGov site. However, there are several 
elements associated with a comprehensive security program that 
are lacking. These include the establishment of a comprehensive 
computer security plan, adequate coordination of security 
measures being supplied by the different contractors that are 
being used for the operation and maintenance of FirstGov, and 
completion and independent validation and verification of risk 
assessments on the site. These are fundamental computer 
security steps.
    FirstGov represents one of the most important national 
sites on the Internet today. Given its visibility and its 
importance, we would urge that these kinds of security measures 
be put in place; and indeed, in conversations with GSA, we are 
confident that a great deal of action has already been 
initiated.
    A second challenge deals with taking reasonable, practical 
steps to ensure that FirstGov does not enhance abuse of the 
government's information resources. We cannot ignore the 
assistance that such a tool provides to those with malicious 
intentions who regularly conduct tedious electronic 
reconnaissance of Federal Web sites in search of information 
that can assist in their wrongdoings.
    FirstGov search results provide perhaps the most 
comprehensive index of all information on the U.S. Government's 
public Web sites. Commercial search engines commonly index only 
a fraction of the government sites and pages. The search 
engine, to be perfectly clear, does not search classified or 
for sensitive information on government sites. That's not its 
purpose. But it is imperative that agencies provide effective 
frontlines of defense by ensuring that their own public Web 
sites do not post or facilitate access to inappropriate 
information, and it is also important that FirstGov itself 
provide an effective reinforcement by considering formal 
policies and procedures to routinely check, identify 
questionable or sensitive materials and removing them as 
quickly as possible from the FirstGov index.
    The point here is not to make FirstGov a governmentwide 
monitor, for computer security or privacy. It is a logical 
extension of what we would consider practical steps that can be 
put in place.
    The third challenge deals with alleviating concerns that 
have been raised about the impact of the government's 
relationship both with the Federal Search Foundation and with 
official partners that are being established in the private 
sector. In 2 to 3 years, when an open, competitive bidding 
process is expected to occur for FirstGov, its systems 
operations, its development and its maintenance, it is 
important for everyone to understand how the transition will 
take place from the current arrangement to that new situation. 
It is also important that policymakers throughout the 
government have assurances that the Federal Government has 
adequate control of how official data from its Web sites are 
being collected and used now by the Federal Search Foundation 
and by whatever vendor or private entity assumes control of 
this project in the future.
    With respect to the official sponsors or partners to 
FirstGov, the board may simply need to explain the advantages 
it sees behind why these partnerships are essential to 
FirstGov's success, given the controversies that can emerge 
with these kinds of relationships.
    The fourth challenge lies with extending, tailoring and 
coordinating access to government information. FirstGov is a 
mechanism that should be adaptable to changing technology and 
to changing needs of users. In its present form, there are 
other government data bases and information that can be 
indexed, more so than the public Web pages that it currently 
searches. These are just issues that need to be addressed as 
the site continues in development.
    Surveys also indicate that an increasing number of Internet 
users prefer to tailor their views of information based on 
their personal needs and preferences. In the public sector, 
legitimate privacy concerns and policies prohibit these 
practices which are conducive to the type of electronic 
interaction and Web page customization that you might want to 
see in the government. So these are, again, issues that need to 
be brought to everyone's attention.
    So let me say, in conclusion, that the FirstGov effort 
represents a significant achievement toward enabling electronic 
government. Larger issues do indeed loom on how to sustain the 
site as a permanent feature of the Federal Government, and it 
takes on even greater significance in today's Internet 
environment.
    An overall management strategy and blueprint for setting 
expectations, showing direction and demonstrating results would 
be very helpful to see. However, this plan should also be 
flexible to allow for creative approaches to accessing 
information and responding to the dynamic technology changes in 
today's environment.
    Thank you, Mr. Chairman; and I will be happy to answer any 
questions.
    Mr. Horn. Thank you. We will get further testimony, I am 
sure, from you.
    [The prepared statement of Mr. McClure follows:]

    [GRAPHIC] [TIFF OMITTED] T4926.015
    
    [GRAPHIC] [TIFF OMITTED] T4926.016
    
    [GRAPHIC] [TIFF OMITTED] T4926.017
    
    [GRAPHIC] [TIFF OMITTED] T4926.018
    
    [GRAPHIC] [TIFF OMITTED] T4926.019
    
    [GRAPHIC] [TIFF OMITTED] T4926.020
    
    [GRAPHIC] [TIFF OMITTED] T4926.021
    
    [GRAPHIC] [TIFF OMITTED] T4926.022
    
    [GRAPHIC] [TIFF OMITTED] T4926.023
    
    [GRAPHIC] [TIFF OMITTED] T4926.024
    
    [GRAPHIC] [TIFF OMITTED] T4926.025
    
    [GRAPHIC] [TIFF OMITTED] T4926.026
    
    Mr. Horn. Dr. Patrice McDermott is the information policy 
analyst at OMB Watch, and then we will have two more witnesses, 
Mr. Bohannon and Mr. Fleisher.
    Dr. McDermott.

STATEMENT OF PATRICE MCDERMOTT, INFORMATION POLICY ANALYST, OMB 
                             WATCH

    Dr. McDermott. Good morning. I want to thank you, Mr. 
Chairman and Mr. Turner, for the opportunity today, the fourth 
anniversary of the signing of the E-FOIA, to testify on 
FirstGov, the Federal Government's new Web portal.
    My name is Patrice McDermott. I am a policy analyst at OMB 
Watch, a nonprofit research advocacy organization that works to 
encourage a more open, responsive, and accountable Federal 
Government.
    For more than 15 years, OMB Watch has been calling for 
improved public access to government information, and we have 
encouraged the Federal Government to make use of the new 
electronic technologies to assist in that improved access. But 
even though the Internet has grown increasingly ubiquitous, the 
Clinton administration has done little to make access easy for 
the average citizen--until now.
    FirstGov is an enormously important first step, actually a 
giant leap, in harnessing newer information technologies to 
make the Federal Government more accessible to the public. We 
applaud Dr. Brewer for his commitment to democracy and 
information access, and we applaud the administration for 
listening to and responding to our criticisms during the 
developmental stages of FirstGov.
    We also wanted to recognize, as Ms. Katzen did, that 
FirstGov is built on the significant groundwork that was 
undertaken for several years under the auspices of WebGov, an 
effort with appreciable input from many people both inside and 
outside the government.
    While credit should be given to the President for his 
leadership and his team for getting the task done, this should, 
as others have noted, be recognized as a first step. Our 
submitted testimony describes improvements that still need to 
be made to FirstGov. In that, we also raise a number of 
important policy issues raised by FirstGov, including its 
relationship to the Federal Search Foundation, that have not 
been fully addressed and must be resolved.
    Our review of the FirstGov site can be summarized as 
follows: The search engine is very fast and very impressive, 
but, as Mr. McClure noted, to get search results relevant to 
user requests often requires significant work. Indeed, we often 
found government information for which we were looking more 
easily through other search engines, and in some cases the 
information was not retrieved at all through the FirstGov 
search engine.
    Second, the directory of topics is also a great first step 
but also needs significant work. The topics need refinement, 
and procedures for their being kept up to date need to be 
established. I know that OMB and GSA have some plans for this, 
but it can't depend just on what happens in the agencies.
    The privacy statement on FirstGov is very clear and useful. 
Unfortunately, however, when you click on some other government 
sites from FirstGov, cookies are being sent in a number of 
cases. Although OMB has issued guidelines, strong leadership is 
needed to help agencies uniformly comply with privacy 
protections. The details of some of those sites are in the 
printed testimony.
    Opportunities for feedback for the public to comment on 
various aspects of obtaining government information are readily 
at hand. This is great. While these comments should prove very 
useful, there is still a need to conduct focus groups with 
different types of users to identify ways to improve the 
portal.
    As has been noted and will be talked about also by Mr. 
Bohannon--the subject of his testimony I have seen--the concept 
of certified partners were confusing in earlier presentations 
about FirstGov and is no clearer now that FirstGov is public. 
As the portal is now operational, that is, the rush to get it 
done in 90 days is over, GSA should not rush into these 
partnerships without public debate on what is to be achieved 
and what a partnership truly entails.
    Some other issues about the site. Information about 
FirstGov itself should be improved, which could be done through 
FAQs--frequently asked questions. An example of useful 
information is how often spiders are set to crawl agency Web 
sites. The frequency determines how current information on 
FirstGov is at any point and very likely relates to a problem 
of phantom URLs that we and others have encountered. Also, 
there are questions of what are the criteria for establishing 
links; what the criteria for establishing the priority of what 
appears as search results.
    As I have said, the Web portal is a major accomplishment. 
However, there are a number of major policy issues created or 
highlighted that have been left unattended. These include, is a 
privileged relationship being created? This has been addressed 
by Mr. McClure, and SIIA will address it, and we share many of 
the concerns.
    Access to what? FirstGov needs to address a number of 
access issues. It does not include an easy way to find current, 
timely information, as searches do not capture the context of 
important government data bases such as Federal Register and 
WAIS data bases. And it will not find nor will it notify users 
of the vast amount of government information that exists only 
in print, nor of the records of the Federal Government. 
FirstGov should be an important part of a comprehensive effort 
to maximize access to government information.
    Permanent public access. FirstGov's ability to retrieve 
pages highlights the problem of Web pages that might be here 
today and gone tomorrow. It is possible that Fed Search's index 
data base could help facilitate permanent public access, but 
technology could not solve the policy problems that exist.
    Privacy. As I have noted, a number of Web sites yield the 
cookies----
    Mr. Horn. Ms. McDermott, we are going to have to bring the 
gavel down on the next three, and you are one of them, if we 
are going to get questions, because that's the only way we can 
get it.
They are all anxious to leave.
    Dr. McDermott. I understand. I thought I had it down to 5 
minutes, but I didn't.
    Mr. Horn. Well, thank you.
    [The prepared statement of Ms. McDermott follows:]

    [GRAPHIC] [TIFF OMITTED] T4926.027
    
    [GRAPHIC] [TIFF OMITTED] T4926.028
    
    [GRAPHIC] [TIFF OMITTED] T4926.029
    
    [GRAPHIC] [TIFF OMITTED] T4926.030
    
    [GRAPHIC] [TIFF OMITTED] T4926.031
    
    [GRAPHIC] [TIFF OMITTED] T4926.032
    
    [GRAPHIC] [TIFF OMITTED] T4926.033
    
    [GRAPHIC] [TIFF OMITTED] T4926.034
    
    [GRAPHIC] [TIFF OMITTED] T4926.035
    
    [GRAPHIC] [TIFF OMITTED] T4926.036
    
    [GRAPHIC] [TIFF OMITTED] T4926.037
    
    [GRAPHIC] [TIFF OMITTED] T4926.038
    
    [GRAPHIC] [TIFF OMITTED] T4926.039
    
    [GRAPHIC] [TIFF OMITTED] T4926.040
    
    [GRAPHIC] [TIFF OMITTED] T4926.041
    
    [GRAPHIC] [TIFF OMITTED] T4926.042
    
    [GRAPHIC] [TIFF OMITTED] T4926.043
    
    [GRAPHIC] [TIFF OMITTED] T4926.044
    
    [GRAPHIC] [TIFF OMITTED] T4926.045
    
    [GRAPHIC] [TIFF OMITTED] T4926.046
    
    [GRAPHIC] [TIFF OMITTED] T4926.047
    
    [GRAPHIC] [TIFF OMITTED] T4926.048
    
    [GRAPHIC] [TIFF OMITTED] T4926.049
    
    [GRAPHIC] [TIFF OMITTED] T4926.050
    
    [GRAPHIC] [TIFF OMITTED] T4926.051
    
    [GRAPHIC] [TIFF OMITTED] T4926.052
    
    [GRAPHIC] [TIFF OMITTED] T4926.053
    
    [GRAPHIC] [TIFF OMITTED] T4926.054
    
    [GRAPHIC] [TIFF OMITTED] T4926.055
    
    [GRAPHIC] [TIFF OMITTED] T4926.056
    
    [GRAPHIC] [TIFF OMITTED] T4926.057
    
    [GRAPHIC] [TIFF OMITTED] T4926.058
    
    [GRAPHIC] [TIFF OMITTED] T4926.059
    
    [GRAPHIC] [TIFF OMITTED] T4926.060
    
    [GRAPHIC] [TIFF OMITTED] T4926.061
    
    [GRAPHIC] [TIFF OMITTED] T4926.062
    
    [GRAPHIC] [TIFF OMITTED] T4926.063
    
    Mr. Horn. Mark Bohannon--and we can get back to a lot of it 
afterwards. Mark Bohannon, general counsel and vice president, 
Software and Information Industry Association.

STATEMENT OF MARK BOHANNON, GENERAL COUNSEL AND VICE PRESIDENT, 
         SOFTWARE AND INFORMATION INDUSTRY ASSOCIATION

    Mr. Bohannon. Thank you, Mr. Chairman and Mr. Turner, for 
the opportunity to testify today on the FirstGov project.
    We do not come here today believing that either we have all 
the answers or that there is a one-size-fits-all solution to 
this tremendous challenge that Ms. Katzen, Mr. Barram, and Dr. 
Brewer are trying to undertake. Rather, our concern, which you 
find in our testimony and our recommendations, necessary steps 
to improve the project, are actually drawn from the unique 
vantage point of over 1,000 companies in 33 countries who are 
developing the backbone of access to the Web, developing unique 
applications that meet a variety of consumer, educational, 
business and governmental needs. Our members also include many 
of the longstanding publishers in the off-line and digital 
world. We are providing services and products that meet 
virtually every market and every area imaginable, including 
those incorporating information from government sources.
    I also want to emphasize that the vision of e-government 
that has been discussed today, the longstanding policy of this 
administration and as reinforced by Ms. Katzen, is one that 
SIIA shares and is at the forefront of encouraging both in the 
digitization of government and in the provision of services.
    We also want to note that we are very pleased that Director 
Sally Katzen has been given a leadership role in reviewing on a 
governmentwide basis all of these e-government initiatives, 
particularly looking at the possibility which we have growing 
concerns about, that there is increasing competition by the 
government in the provision of electronic and commerce service.
    Mr. Chairman, Mr. Turner, we have stated our concerns on a 
number of occasions, and we would be glad to provide that 
information for the record.
    In our prepared testimony for this hearing----
    Mr. Horn. Without objection, that will be put in the record 
at this point.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4926.064
    
    [GRAPHIC] [TIFF OMITTED] T4926.065
    
    [GRAPHIC] [TIFF OMITTED] T4926.066
    
    [GRAPHIC] [TIFF OMITTED] T4926.067
    
    [GRAPHIC] [TIFF OMITTED] T4926.068
    
    Mr. Bohannon. Our testimony has been presented for the 
record.
    We also want to note that Mr. Barram was very, very kind 
and gave us a very, very thoughtful response to our earlier 
comments to GSA. With this background and with additional 
information, it is important to understand that we want to 
focus on FirstGov as a system, not merely as a portal, what one 
sees up front. Quite frankly, we could get 10 experts in a room 
and have 15 opinions about what the portal would look like.
    Our focus really is on the system and the implications for 
ensuring that there is access to all government information on 
a timely basis, consistent with legal and public policy 
principles.
    This is a very unique venture by every measure, and we 
commend Dr. Brewer for stepping up. It is not always easy to 
work with the government.
    It is also important to understand that out of this there 
is a special exclusive relationship between the General 
Services Administration and with the not-for-profit Fed-Search 
Foundation. In this exclusive position, the Foundation will 
build, operate and maintain the search engine. They will also 
be responsible for indexing all U.S. Government Web sites. This 
task is not merely technical nor ministerial. It will, in fact, 
determine what citizens see about their government. It will 
also determine what are priority queries and results in this 
process.
    Access to this index and, for that matter, any aspect of 
FirstGov can only be done by being a certified partner. In our 
view, imposing those conditions, regardless of which level you 
are at, is inconsistent with Federal law and policy, including 
the Paperwork Reduction Act, which prohibits agencies from 
restricting or regulating the use, resale, or redissemination 
of public information to the public.
    Moreover, to be a gold or truly certified partner, in our 
view, also requires you to enter into a number of agreements 
with the Fed-Search Foundation. These dual negotiations, we 
need to be cognizant of, create a ripe opportunity for 
confusion. It also raises questions about whether we are all 
benefiting from a gift or, in fact, reimbursing costs that we 
just do not understand.
    It also, based on the information we have today, might 
raise the possibility that many of the existing redisseminators 
or other access providers may have to change their business 
models, their customer relationships, but again these are 
questions that many of those who are interested in 
participating are raising but yet we do not have information at 
this point to answer these questions.
    With the time remaining, let me quickly focus on our 
recommendations.
    First----
    Mr. Horn. Well, could we ask that the things that Ms. 
Katzen should be addressed to, if you feel it hasn't been here, 
we will get back with you, but I don't want us to go without 
questions by both Members.
    Mr. Bohannon. That's fine. I would like to get back to our 
recommendations.
    Mr. Horn. All right, fine.
    [The prepared statement of Mr. Bohannon follows:]

    [GRAPHIC] [TIFF OMITTED] T4926.069
    
    [GRAPHIC] [TIFF OMITTED] T4926.070
    
    [GRAPHIC] [TIFF OMITTED] T4926.071
    
    [GRAPHIC] [TIFF OMITTED] T4926.072
    
    [GRAPHIC] [TIFF OMITTED] T4926.073
    
    [GRAPHIC] [TIFF OMITTED] T4926.074
    
    [GRAPHIC] [TIFF OMITTED] T4926.075
    
    [GRAPHIC] [TIFF OMITTED] T4926.076
    
    [GRAPHIC] [TIFF OMITTED] T4926.077
    
    [GRAPHIC] [TIFF OMITTED] T4926.078
    
    [GRAPHIC] [TIFF OMITTED] T4926.079
    
    [GRAPHIC] [TIFF OMITTED] T4926.080
    
    [GRAPHIC] [TIFF OMITTED] T4926.081
    
    Mr. Horn. Mr. Fleisher, I will give you 1 minute on this, 
and then you can have all you want after we are done, and then 
we will get back to it.
    Mr. Fleisher. Why don't I actually save you that 1 minute, 
and why don't you get to the questions that you want to get to, 
and I can come back to my thoughts.
    Mr. Horn. All right. We will give you plenty of time.
    Ms. Katzen, some of these only you can answer, and that is 
the privacy situation. How many agencies have a privacy policy 
now?
    Ms. Katzen. Virtually all. We had sent out a memorandum 
earlier in the year requiring agencies to post their privacy 
policy on their Web pages, and GAO their report approximately 2 
or 3 weeks ago. I think it was something like 9 sites out of 
2,700 that did not actually have the privacy policy posted, and 
we have been following up with those agencies. So I would say 
virtually all is an understatement.
    Mr. Horn. Now is there one basic approach to this in the 
agencies or are they all different?
    Ms. Katzen. Well, there are differences, but the 
fundamental proposition is that personally identifiable 
information should not be made available without the consent of 
the individual, and unlike the commercial sector, the 
government is subject to the Privacy Act of 1974, which sets in 
place the rules and regulations for privacy information being 
disseminated.
    There are routine uses and other kinds of procedures that 
have been in effect for the last 25 years, where agencies will 
let people know when personal information would be used, and 
those are published in the Federal Register, and there is an 
entire process on that.
    The issue that Ms. McDermott raised and that came up this 
past summer was the use of persistent cookies. These are not 
chocolate chip or oatmeal raisin. They are software devices.
    Mr. Horn. Let's translate that for the layperson.
    Ms. Katzen. I was going to say, they are software devices.
    Mr. Horn. I love pricking bureaucracy.
    Ms. Katzen. It is not my term. It is industry's term, but 
these are software devices that track users over time and over 
different Web sites. Now, there is a reason for this. If you 
don't have this kind of a device, you don't know whether 
somebody is coming to your site 12 times or if 12 different 
people are coming to your site.
    You also heard from Mr. McClure that he would like at some 
point for us to be able to get back to individuals to give them 
updated information. That means we have to know who they are. 
But our position is that, unlike the commercial sector, we 
should not be tracking individual information. You should not 
have to reveal who you are or have some record kept of who you 
are to access government information.
    So one of the conditions that Mr. Barram talked about in 
our policy on partners, and one of the policies of the Federal 
Government and Mr. McClure raised, is our adamant position that 
persistent cookies are inappropriate. Where we find them, we 
take them down.
    Mr. Horn. Let me move from privacy, which we can talk about 
with the Administrator, to the fee structure 2 years from now. 
What is the administration anticipating that the options might 
be and has any guidance gone from OMB to GSA? How are we 
thinking this through? It is a very generous offer that Dr. 
Brewer makes, but 2 years can go fast and pretty soon is 
everybody going to be billed $1 or something to get information 
from the government?
    Ms. Katzen. No. Our anticipation is that as technology 
continues to improve and as FirstGov proves itself, this will 
be something which Congress, in its infinite wisdom, will 
choose to appropriate for so that we can have the funds 
necessary.
    The actual processes to date has been the funds needed to 
set up the first page, the portal, and to administer the site--
which cost us $1 and there is $165,000 a month to maintain the 
site over the next 2 years--that was achieved by a pass-the-
hat. I said that we took this to the President's Management 
Council--the chief operating officers of all the major 
agencies, usually the deputy secretaries--and it was 
enthusiastically supported and agencies made contributions to 
fund the maintenance of the portal for the next 2 years out of 
existing funds because we did not have any appropriations for 
this at this time.
    The search engine itself was donated by Dr. Brewer, and his 
arrangement for 2 years from now, or it is almost 3 years, will 
be to leave a lot of options open for how we would proceed, and 
Dave Barram can talk about the kinds of things that we are 
thinking. Two years from now there will be a new 
administration. It will also be, most importantly, after the 
system has been tested. It will depend on whether it works, if 
it is well received and it needs to go forward, and don't want 
to lock anything in now, but there are a variety of options 
available.
    Mr. Barram. Let me add to that. We, as Sally said, we 
passed the hat and I think in fiscal year--and in fiscal 2001 
we are going to pass the hat to cover the costs we have still 
to go in 2001, but for 2002 we should be getting an 
appropriation. That's one point.
    Second, as Sally said, when we get--the agreement we have 
with the Fed Search Foundation, which is an independent, 
private, nonprofit foundation, is that what they are doing, the 
kind of technology they are using, will not be such that it is 
proprietary and can't be assumed by someone else.
    So we will have an open bidding process that will begin. 
The process will begin 6 months before the end of the period, 
which is two, two and a quarter years, or whatever. I forget. I 
don't know exactly the date, but 6 months before that we will 
begin the process to figure out where we go from there.
    And we will--another really important thing is we will have 
been knowing, understanding, collecting information on the 
costs to do it. That's one of the things that Fed Search has 
agreed to, that they will make open the costs of running it so 
that we can have an open, fair bid.
    Now here is something else that we all should always keep 
in mind. Internet time is an amazingly new experience and in 2 
years I am not going to sit here and try to predict what life 
will be like. I don't know how old Inktomi is but they have 
come from not very long ago to an amazing place in the world, 
and technology is growing dramatically, so we don't--there is 
no point, I don't think, in spending a lot of time figuring out 
what the technology is going to be in 2 years, as long as we 
have the right process for someone else, or even Inktomi, to 
take this over. As long as it is there, that's what we have set 
up.
    Mr. Horn. Mr. Barram, I am going to yield the rest of the 
questioning of 10 minutes to my colleague from Texas, Mr. 
Turner. So go ahead.
    Mr. Turner. Thank you, Mr. Chairman.
    First, I want to thank Dr. Brewer for the contribution that 
he has made. I can see you have provided us with something that 
moved us forward on a much more rapid basis than we ever could 
have done without your contribution. To think that this was a 
90-day project and that it succeeded on that timetable is truly 
amazing.
    I do know the sense and motivation that you have, as all of 
us do here in public service, and you have taken your talent 
and have, in your way, attempted to give back some of what you 
have been so fortunate to receive. So for that we are very 
grateful.
    Mr. Brewer. Thank you, Mr. Turner.
    Mr. Turner. I know that some of the questions that were 
raised today are the kinds of issues that this committee and 
all of us would be wise to diligently pursue, because obviously 
your intent in making this gift of a search engine to the 
government has a limited timeframe on it, and understandably 
so.
    But understanding how slow sometimes the government does 
move, we would be best advised to be sure that we are prepared 
to deal with the problems that we face and to make the 
transition that you expect government to make and that has been 
agreed to by you and the GSA.
    I might just ask you, by way of overview, having heard some 
of the comments here today, some of the questions that were 
raised regarding the partners and the arrangements with 
partners, some of the issues regarding whether or not others 
may at the appropriate time be able to bid on an equal footing 
to continue this operation of the search engine, to just share 
with us your general overview and thoughts about the direction 
you see this as the primary donor of this project.
    Mr. Brewer. I would be happy to. To start, I think maybe 
the first place to start is to realize that it has a fixed 
lifetime in part because I want it to be done the right way 
through a normal procurement process that is fair and even and 
internal. It should not be something done outside the 
government. It should be done by the government itself.
    Second, I would point out we have no special relationship 
with the government. The things we are doing is basically 
visiting Web sites to collect information to build a data base. 
Many other companies can and do that now. We are just doing it 
as a foundation, so that we can donate it not only to the 
government but to libraries and schools and other groups.
    In fact, the government has no obligation to use the 
Federal Search engine data base. They can use their own or 
create a new one whenever they like, and I would love to see 
that. There is no attachment to us being the solution. I think 
my only attachment is to getting the process started, which I 
am happy to say we have done.
    So there--in my mind there is no special privilege that we 
have, that we are using public information that anyone else can 
go get from the same Web sites that we get it from.
    Finally, I think it is worth pointing out that we have been 
a bit more practicable than that. We have agreed not to affect 
the requirements for the procurement process so that we are not 
affecting what the requirements are in any way. We will stay 
out of that process, and we have also agreed to continue to run 
our data base not only until the decision for replacement has 
been done but until it has been put in place, so that there is 
no pressure on anyone to hurry up and make a bad decision. So, 
in good faith I think we will run it as long as necessary to 
get all of those things done.
    At the same time, I would like it to be aimed for 2002 
because I think it is one of those things where we ought to 
focus on keeping the momentum, and if we set it at 5 years 
nothing would get done for 3 of them. So let's--it should have 
a fixed time line. That's definitely part of the design.
    Mr. Turner. Could you give us some sense of what we are 
likely to be facing in terms of cost? I know from the testimony 
that we have heard already, the cost of maintaining the Web 
site itself, I believe, Sally, didn't you say it was $165,000 a 
month?
    Ms. Katzen. Yes, sir.
    Mr. Turner. Which has been raised by the agencies pooling 
their resources.
    Obviously, I am sure the agencies would prefer a direct 
appropriation to take care of that some time in the near 
future. But in terms of the cost, the estimated cost of taking 
over and operating the search engine, what range are we talking 
about?
    Mr. Brewer. It is a little hard to tell at the moment 
because it depends on two things that are very hard to predict. 
One is the number of documents on-line, government documents, 
which at the moment is 27 million, but my hope is that number 
will increase dramatically. That will raise the cost pretty 
much proportionately with the number of documents on-line. The 
other one that is hard to predict is the amount of traffic. In 
some sense, the more popular the site is, the more effective it 
is, the more traffic it will have and the more it will cost to 
operate.
    So the underlying costs are tied directly to traffic and 
data base size, neither of which is predictable. That being 
said, I expect in the 2 years that it will cost me on the order 
of $5 million to $10 million. That includes some subsidies from 
both Inktomi and Sun Microsystems, and I obviously hope to 
raise money from many other parties and in-kind contributions, 
all the normal things that a charity would do.
    Mr. Turner. It is obvious that the cost far exceeds just 
the cost that we have talked about already that the government 
has provided by pooling the $165,000 a month, is that right, 
Sally?
    Ms. Katzen. Yes, sir.
    Mr. Turner. Have you all looked at any estimates? Is there 
any way to try to determine what kind of costs we may need to 
be prepared to appropriate?
    Mr. Brewer. The plan is to do exactly that as we gather 
more information, and I think we have the time to do that well.
    Mr. Turner. OK.
    Mr. Brewer. Also, there is a certain inefficiency in the 
fact that we are completely keeping the systems completely 
separate, and so I think there would be some cost reduction if 
you actually did do a full procurement and did it with one 
contractor.
    Mr. Turner. I would like to hear some comments from any of 
you who would like to address this issue. Obviously there are 
reasons for government sites to be accessible at no charge, and 
yet we all know the primary way of funding many of these sites 
is through advertising. Give me, if you will, from your 
perspectives, the pros and cons of operating this site solely 
at government taxpayer expense versus the merits of perhaps--or 
if there are merits of considering some source of private 
outside revenue for support of this type of site.
    Sally, I will start with you.
    Ms. Katzen. Yes, sir. Well, the Paperwork Reduction Act 
makes it quite clear that government information should be made 
available to the citizens at no cost. It was the taxpayers' 
money which generated the data in the first instance and they 
shouldn't have to pay twice to get it back. That philosophy has 
governed our approach to making government information as 
widely accessible as possible at no cost.
    The presence of advertising is viewed as a cost by those 
who are distracted or disturbed by the boxes that flip up or 
the frames that are created around the Web pages to entice 
people to do certain types of activities that are commercial in 
nature.
    Information is, I think, at the heart of our democracy. It 
helps us know better what it is that the government is doing 
and to appreciate in some instances the complexity of that. As 
we move into an information age from an industrial base on 
manufacturing, it does produce certain challenges, and things 
like privacy that the chairman mentioned and security are 
terribly important concerns as we have these interconnected 
networks. But the technology is really giving us a key and it 
is opening the door here for us to be able to have much better 
dissemination of information.
    We just don't believe, and we think the Congress has spoken 
eloquently on the subject, that it should not be paid for.
    Mr. Turner. So that includes any form of consideration of 
advertising on this site of any type, in your view?
    Ms. Katzen. That is in my view, yes.
    Mr. Turner. Does anyone have a contrary view? No one?
    Mr. Brewer. It is certainly worth pointing out that many of 
the partners would be able to have advertising, and I think as 
long as there is one primary source of government information, 
it is OK if there are others that are more economically minded 
and may be more biased.
    Ms. Katzen. They could have advertising on the gold model 
that Dave is referring to.
    Mr. Brewer. And the silver model.
    Ms. Katzen. And the silver model, on their own pages, 
because they are creating value added and that's their 
compensation for their value added. But as to the underlying 
documents, which are the government's property, those are to be 
accessible without charge.
    Mr. Turner. Thank you.
    Thank you, Mr. Chairman.
    Mr. Horn. Let me just ask and maybe we pursued it but not 
enough, if the data bases are not in the public domain, what 
impact does that have on the control of FirstGov and access to 
government information?
    Ms. Katzen. Well, actually the data base is in the public 
domain, because what the search engine does is spider documents 
that the agencies in the first instance have determined to make 
on-line. Dr. Brewer's hope is that agencies will put more 
documents on-line, but right now the agency makes the 
determination, puts them on-line, and then the spider picks 
them up and brings them into the data base. Those are all 
public documents, and any citizen can go to the FirstGov page 
and get access to any of them. It is absolutely free and it is 
in the public domain. That is not an issue.
    If others want to add value, if they want to do this in a 
different way by asking questions rather than by keyword 
search, if they want to use a different model, and there is a 
number of them and we would like to see as many models bloom as 
possible, we are hoping that universities will do so. We are 
hoping that the private sector will do so--we have done a lot 
in this administration on public-private partnerships, and this 
is one place where we think there is a golden opportunity. We 
are going to give it to you straight, and they can add whatever 
value they want in whatever size they want, but the data are 
all in the public domain. And that's why I disagree with Mr. 
Bohannon about the Paperwork Reduction Act. I think that it is 
quite clear that this is not a violation.
    If I could just add one more thing, sir, before regrettably 
I do have to go, I agree with a number of the comments that 
have been made about what things we have to think about as we 
mature the system. I am particularly sympathetic to the call 
for clarifying or explaining how the partnerships work, and how 
the data base will be developed over time and 2 years from now. 
It seems that no good deed goes unpunished. When we first 
started on this process, Dave Barram put together in his own 
PowerPoint an explanation of what this thing could look like, 
and to get feedback we put it out; in response, we got all of 
these questions and concerns that we now understand how they 
could have raised those questions, but that was not what we had 
been planning. It was not what we were thinking about.
    The speed with which we have tried to put this up and get 
it started, and this is just a start, has meant that we have 
spoken our language, maybe bureaucratic, maybe technical. We 
have used shorthand for what we are thinking, and I agree 
completely with the need to go slowly now to clarify.
    Mr. Horn. Now on that point, is it OMB or GSA that would 
develop a strategic plan that included anticipated 
capabilities, costs, revenues and responsibilities?
    Ms. Katzen. This would be the responsibility of the 
FirstGov board on which I sit and Dave Barram sits, as do 
several other members of the PMC, the President's Management 
Council, and several of the CIOs from the relevant committees 
of the Chief Information Officers Council. That board has been 
meeting more than some of us would like, and we are going to 
continue to do that.
    Mr. Horn. You are going to expose Dr. Brewer to 
bureaucracy. They don't have that in Silicon Valley. They are 
doing things.
    Mr. Barram. But he might have it at Berkeley, though. He 
may know about this.
    Ms. Katzen. Thank you very much, Mr. Chairman.
    Mr. Horn. You are quite welcome. Thank you for coming.
    Mr. Barram. Can I just add one thing to what Sally said. 
She answered your question about who had the documents, the 
public domain. What the Fed Search Foundation does is bring 
back full text copies of all 27 million pages into a data base, 
and from that people can search. They are simply copies of all 
the data on the government's pages. So when you are given a--
when you ask a question, it comes back and says, you will find 
what you want at the URL of, and you go to that and now you are 
in the Federal Government page, which is in the public domain.
    So for a moment these pages, the copies of these pages, are 
in Fed Search's possession, if you will, but anybody can get to 
those, the originals of those pages, and does.
    Mr. Horn. Dr. Brewer, let me ask you this question: As I 
understand it, the search engine donated by the Federal Search 
Foundation includes a massive index data base. Now, who owns 
this data base and can anyone gain access?
    Mr. Brewer. Let's see. It is a bit complicated, frankly. 
The data base, although it contains public documents, is in 
fact a separate and new creation done by a private foundation 
with private funding. So technically the Fed Search Foundation 
has created this piece of intellectual property.
    That being said, we want people to use it. Therefore, we 
give it away, not only to the government but to libraries and 
schools and in particular to anyone else the government tells 
us to, a module of constraints which I will get to but roughly 
that was the premise of the partner program. We are in some 
sense agnostic about the definition of the partner. We simply 
want to have the government decide what an appropriate partner 
is rather than us having to decide.
    So the thing that is, I think, subtle is because this is a 
privately owned data base. In fact, we are not allowed to give 
it to other corporations and we are not allowed to subsidize 
their business. That's specifically against the rules about 
charities.
    So we can give it to them at cost, which we are happy to 
do, but we cannot--we cannot subsidize their businesses. So if 
they go through the government sites, FirstGov or any other 
government site, then they can have it free because we are 
subsidizing the government or the library or the school. If 
they want direct access to do their own portal with this 
information without going through the government, they can do 
that but now it is a relationship to an ongoing business and we 
cannot subsidize them.
    We will provide it at cost, but that's really our only 
issue.
    Mr. Horn. Well, they are patented or copyrighted, the 
software, or what? How does that work?
    Mr. Brewer. In practice, the data base doesn't--isn't of 
any use outside the servers that it runs on. So when you 
actually do a query, the query has to physically travel to the 
data base and then get returned. This is how all Internet 
search engines work. So there is nothing special about this 
from the Fed Search Foundation.
    When we say give access, what we really mean is we will 
have a connection, a network connection, to their servers and 
they can send us traffic to our computers that will send them 
the answers, but these have real costs. There are real 
computers that the stuff has to run on. There is band width we 
have to pay for. We have our own suppliers that have their own 
restrictions that we have to follow, but those are, to some 
extent, those costs.
    Mr. Horn. What kind of security do you have against that 
process so that when our unfriendly people that are engaging 
our networks all over the world, what can you do to stop that 
or slow that down?
    Mr. Brewer. I would say two things. First, the most 
important perhaps is that this is--we only have public 
information. So in some sense the penalty for security 
violations is mitigated by the kind of information that's in 
the data base. That being said, we take very seriously that the 
data base has to be secure, and these are the same constraints 
that existing search engine portals have, and I think our 
experience with groups like AOL and Yahoo has been educational 
and I don't see any reason why the security measures taken in 
those situations wouldn't work well here. So we do take it very 
seriously; firewalls, private access, the whole nine yards. But 
I do have to admit I find some comfort in the fact that it is 
already public data.
    Mr. Horn. Well, do you see your colleagues in Silicon 
Valley, be it East, West, North or South, working on something 
of diversion, shall we say, when that type of signal gets in 
when they really shouldn't have access? And how are those 
doing? It seems to me there will be millions of dollars made 
that way if somebody can figure out how to divert the entry 
systems that we see, whether they are in the Philippines or 
Latvia. We had a whole number from around the world a few weeks 
ago before this committee, and it is happening everywhere.
    Mr. Brewer. I am not quite sure I understand--we don't 
actually run the Web sites themselves so we don't operate the 
FirstGov Web site. The servers we own have very few parties 
that can connect to them and, in fact, one obviously being the 
government, but we don't get traffic directly from end users 
and that makes it much easier to secure.
    So all the traffic of Fed Search today comes through the 
FirstGov portal and we have a direct connection with them and 
can authenticate that connection to know that it really is 
traffic from them. In fact, that's part of the cost of adding 
partners that don't want to go through FirstGov, is that we 
have to then set up a direct connection with their servers for 
the same reasons, to ensure the security and that again has 
real costs that we simply pass on.
    Mr. Horn. So you are saying that despite your system that 
gets access to them, you are saying that those hackers could 
not get into the governmental computers that way, or could 
they?
    Mr. Brewer. When you actually visit--so when you see a 
result page, a set of links, that information has already left 
Fed Search, is now being displayed by a server, in this case 
the FirstGov server. So the information is actually there, not 
at Fed Search, and then when you click on that link you go 
directly from the FirstGov server to the branch or agency 
server. You do not go back to Fed Search at any time during 
that visit. So we have no effect, positive or negative, on the 
security of particular government Web sites.
    Mr. Barram. Let me just add a comment. You will remember 
that when Bill did the demo, you saw the FirstGov page. That's 
FirstGov. That's a government run thing on servers that are 
contracted by the government, with appropriate security. When 
he typed in Social Security, that search went to Fed Search and 
back came a list on FirstGov.gov again. So from Fed Search, the 
lists came back to the government page. When he clicked on the 
top choice, it went to a Social Security site with all the 
security around there.
    It is now two levels away from the Fed Search search 
engine.
    Mr. Horn. So you don't see a problem, and if you do, it is 
up to the government agency to worry about it and not the 
process here?
    Mr. Barram. You know, Eric has described what security they 
have, and it is important that we--they have that security, and 
there are a limited number of people who have pipes into the 
Fed Search engine. The bigger security questions of course are 
at the agency, and in a much less way at FirstGov, but the real 
issues on security are, I think, at the agency level where all 
the Web pages are managed.
    Mr. Horn. Do any of our colleagues on this side, the ones 
that have raised some questions, do you want to ask those and 
we can get an answer to them and complete the record?
    Mr. Fleisher in particular, I feel we have passed you by a 
little bit, but your firm has a very distinguished position 
with this subcommittee. You were our first witness in April 
1996.
    Mr. Fleisher. Thank you. I think the key reason for me 
being here today was to focus on our findings on the digital 
divide. I don't think those are 100 percent tied into the 
detailed level of questions you are asking about FirstGov.
    My 2 cents on it, my firm's 2 cents on it, is that FirstGov 
is a good, powerful, first initiative for the government. We 
are excited to see the government doing what we advised the 
private sector to do, which is go out there and build something 
and get feedback from your constituents, your clients, your 
customers, and then adapt and iterate. That's a pretty 
important process in the Internet world, and we are excited 
seeing the government doing it that way.
    Mr. Horn. Any other thoughts, Mr. Bohannon?
    Mr. Bohannon. Well, if I might have a chance to respond. I 
think there has been a tremendous amount of very useful 
clarification and information provided by all the witnesses. 
Let me try to address a couple of points that have been made.
    First of all, it is very, very helpful from Ms. Katzen and 
Dr. Brewer to point out that some aspects of the data base may 
be in the public domain right now. We still go back, I think, 
to recognizing that as this unique gift was provided to the 
U.S. Government it is still nonetheless a special exclusive 
relationship between GSA and the Fed Search Foundation. If, in 
fact, there is a genuine offer by the Fed Search Foundation to 
make both the data base of original URLs, as well as any index 
that has been further developed based on any particular 
technology available at cost, we are very willing to sit down 
and discuss that.
    The problem right now, and this is, I think, at the heart 
of why we need to sit down, get a strategic plan, understand 
what everyone's responsibilities are, is that right now you are 
being given two choices. You can either become a certified 
partner or not, and we clearly have concerns that the only way 
in which this information will be disseminated is if you agree 
to both GSA's and the Fed Search Foundation's conditions.
    With all due respect to Ms. Katzen, we do not believe that 
the Paperwork Reduction Act should be interpreted merely by 
saying if one document is available with those conditions the 
law is met. We believe that the Paperwork Reduction Act applies 
to all government information, not just a couple of examples 
that can be pointed out.
    Clearly, and we have a number of recommendations which you 
can read in the testimony, I think we need to have a very real 
discussion with the Fed Search Foundation, with GSA, about 
making sure that bulk access to the index which has been 
enhanced by the Foundation is available, in our view, under 
existing government rules, at marginal cost. We need to sit 
down and make sure there is access to that without having in 
every instance to meet the conditions that have been imposed by 
GSA, nor inherently to rely on the technological 
implementations that may, in fact, be offered right now for 
access. I think that is a real discussion that we need to have. 
I think that will go far toward addressing a number of concerns 
making sure that there is independently available information 
that is not designed in a particular way that may affect what 
citizens see.
    I think that is one very, very important discussion that is 
worth focusing on. We appreciate very much the opportunity to 
have this clarified because it has been very helpful and this 
will allow some of the companies who do have a lot of interest, 
who are members of our association, to know more about what 
kind of business deal they are getting into.
    I think that's the kind of information that we need to the 
strategic plan, making sure that the way the GSA is 
implementing this is done consistent with legal parameters, 
with the goal of ensuring a diversity of information sources. 
That is what is in the public interest here, and we appreciate 
the candid answers today.
    Mr. Barram. Can I make a couple of comments in response?
    Mr. Horn. Sure.
    Mr. Barram. I appreciate Mark's both recognizing this as a 
valuable beginning--and I can assure, and I think he knows, 
that we are very eager to talk with anybody, and this 
association is especially important because of the number of--
because of the companies involved and their involvement in this 
whole industry. We have absolutely no intention of not 
communicating in the most thorough way we can. We have tried--
if we have been a little bit less than fully thorough with--I 
don't know if you put those words together--but with them, it 
is only because of the kind of time pressure we have been under 
to get there, but we have listened carefully to their concerns 
all along the way.
    And as he noted, as I have noted, this is the beginning. 
What this looks like 12 months from now, we are going to look 
back and ask ourselves, what was all that stuff about in 
October 2000 that we were scrambling about? So we are going to 
be partners on this, as you are and all of us, as we go ahead.
    Mr. Horn. Well, when you started with that question I was 
going to praise you for all the good contracts you get at the 
GSA and we take advantage of them in Congress, just as they do 
in the executive branch, when it comes to airplane tickets, 
communications with computers and telephones and all the rest 
of it. So you do a great job with your team.
    Mr. Barram. Thank you. Let me just make one more quick 
comment. We have talked a lot about GSA today and I want to 
make sure everybody does understand there is a board of 
directors at FirstGov that is made up right now of 11 people 
from a number of different agencies. We have been doing a lot 
of the work at GSA and we are housing it at GSA. We are the 
right place to do that, but this has been an interagency 
involvement, driven by the PMC. So for shorthand, you can use 
GSA. Think of it as the FirstGov board that is setting policy 
and at times into the deep details.
    Mr. Horn. Any other thoughts here, Mr. Fleisher?
    Mr. Fleisher. No.
    Mr. Horn. Well, thank you very much for coming. Sorry it 
was sort of disjointed to get your testimony.
    Mr. Fleisher. No problem. Happy to be here.
    Mr. Horn. I looked at your document and that's wonderful.
    Mr. Fleisher. If we could just be sure that would get into 
the record that would be terrific.
    Mr. Horn. All of these automatically go into the record the 
minute we introduce you.
    Mr. Fleisher. Thank you.
    [The prepared statement of Mr. Fleisher follows:]

    [GRAPHIC] [TIFF OMITTED] T4926.082
    
    [GRAPHIC] [TIFF OMITTED] T4926.083
    
    [GRAPHIC] [TIFF OMITTED] T4926.084
    
    [GRAPHIC] [TIFF OMITTED] T4926.085
    
    [GRAPHIC] [TIFF OMITTED] T4926.086
    
    [GRAPHIC] [TIFF OMITTED] T4926.087
    
    Mr. Horn. Dr. McDermott, any other thoughts? And then Mr. 
McClure is the wind up.
    Dr. McDermott. I think the only thing we would add is that 
we heard today, and we have heard previously, that anybody can 
spider government agency Web sites to the depth that Fed Search 
has been allowed to, and that has, from what we hear--we 
haven't tried doing that, that has not been the experience of 
outside government entities that want to do that.
    We have also been told that nobody else wants to do that to 
the depth that Fed Search has, and I don't know if that's true, 
but we would want to have a question addressed whether that is 
the case that anybody could go into that depth as frequently as 
it seems that Fed Search is being permitted to do it, and if 
GSA or whoever facilitated this for Fed Search would also be 
willing to facilitate it for other entities, private sector or 
nonprofit.
    Mr. Brewer. I would be happy to address that. We have got 
every single document by spidering. There is no document data 
base we didn't get any other way than by going to visit the Web 
site ourselves. So anybody can do this. You don't even need to 
be a corporation. A grad student can do it.
    We did warn agencies that we would be visiting the sites, 
but that's actually not required on the Internet. People can 
visit as much as they want.
    Dr. McDermott. But we have heard that agencies block 
outside government folks from coming in and spidering because 
of system demands, for all sorts of reasons, that we have been 
told that by Web people.
    Mr. Brewer. I believe that we follow the same blocking 
restrictions. However, if there is stuff that we have crawled 
that for some reason you can't get to, it is not that hard to 
get the raw files. But I do want people to understand that we 
are going to do it one way and if you want to use our servers, 
you can do it at cost if you are a business. If you want to do 
it a different way, go do it a different way. There is nothing 
stopping you.
    Dr. McDermott. It was just a question.
    Mr. Brewer. I would be happy to help remove any such 
boundaries. Again, this is a catalyst.
    Dr. McDermott. This is not aimed at you.
    Mr. Brewer. Yes. I think it is definitely worth a 
discussion, but you have a lot of options here. You can 
partner. You can do it yourself. You can get it from us at 
cost, but we are in fact, you know, still just a charity and we 
can't subsidize other businesses, and in some sense they are 
not entitled to the data base. We are giving it to them because 
that furthers the goals here.
    Mr. Barram. Let me just add one thing to that. You know, 
there are a number of search indexes that have collected 
government pages. They just don't have all 27 million. You 
know, the example I have used is that there may well be a page 
that a scientist somewhere put up that describes how he created 
garlic flavored ice cream. If you are a commercial Web search 
engine, you may think I don't think I want to spend any time 
chasing that down because my customers don't really care. So 
economically, you are going to have many fewer pages.
    Mr. Horn. Usually, we can't hear the witness. Not only is 
it cookies, it is balloons popping.
    Mr. Barram. So anyway, there are a number of search engines 
out there that have searched a number of government pages. We 
just have them all through this mechanism.
    Dr. McDermott. I just wanted to say----
    Mr. Horn. Let me ask Dr. Brewer this. In 2 years when the 
Fed Search Foundation dissolves, would a new contractor have to 
develop this data base from scratch?
    Mr. Brewer. I am happy to discuss it with them but in 
practice, yes, because they will have their own software 
systems and the data gets stale anyway. It is not like you can 
take a snapshot of it and say this is it, here it is. It 
changes every single day. But I think, you know, there are ways 
you could help that transition, but it really depends on who it 
is and what system they are using. But again we did it in 90 
days. They could do it in 90 days, too. It is not 
insurmountable.
    Mr. Horn. Mr. Fleisher, in your written testimony you 
mention that a number of the public and private policy 
initiatives are currently addressing the digital divide. Could 
you provide a couple of specific examples of that?
    Mr. Fleisher. I think in particular there has been a focus 
on trying to get publicly available Internet access through 
libraries and kiosks, and I think that has been a key public 
policy focus. We believe that is a good first step, but just as 
you can understand how--and a number of studies have shown how 
when children have Internet access at home they do better in 
the school than when they have Internet access only at school. 
The same is true for the adult population.
    Mr. Horn. When I saw that, I thought wouldn't it be 
wonderful if the child comes home from school, can press the 
buttons and get access that there would be a literacy program, 
perhaps, for their parents? It seems to me that would be a 
worthwhile educational endeavor because a lot of them are 
completely illiterates, not just in what they are doing with 
the computer--they can do that with a few things--but their own 
lack of literacy and that would really help a lot.
    Mr. Fleisher. We believe that anything that we can do to 
find the 50 million U.S. adults that we believe in the next 
several years will still be without access and help those 
people have access to the myriad of programs, whether it is 
FirstGov or others that will become available, is, you know, 
one of the most important tasks at this point. Those people 
will truly be left behind because, as you point out, it is the 
new illiteracy.
    Mr. Horn. Yes.
    Mr. McClure, do you want to wind it up?
    Mr. McClure. Yes, I have just two comments to make, Mr. 
Chairman. One is in response to a question you posed a moment 
ago about the importance of security. Again, in my written 
statement and in my oral statement, I was making reference to 
security provided on the FirstGov site. I do agree with Mr. 
Barram that obviously the protection of the agency sites is the 
real site of activity where you want stringent computer 
security measures in place. As FirstGov evolves, and it could 
indeed become the central portal for the U.S. Government for 
the citizen to access government, it is critically important 
that security, even of the FirstGov site itself, be maintained 
so that it is reliable, it is stable and it is not subjected to 
any kind of obstruction or tampering.
    Also, the data base that is maintained either by Fed Search 
or by some other private entity contains a voluminous amount of 
government information, and as other contacts are made with 
that data base which are potentially going to take place in the 
future, the security of that data base will be important. It is 
not a trivial matter or task, regardless of the fact that it is 
publicly available information already.
    I also wanted to mention to Mr. Turner in his question a 
moment ago about the use of advertising, there are two studies 
that we can submit to you for the record. One is from NASIRE, 
who you have testify rather regularly in front of this 
committee, representing the State CIOs. They have conducted a 
study which I think is very useful for the committee to look at 
on the use of portals in State government. Most State portals 
are being maintained and built by the State governments 
themselves. There are others that are maintained totally by 
vendors. Of those that are being maintained by vendors, 
transaction fees are commonly being allowed to be used to pay 
for the cost of the operation and maintenance of those sites, 
and I think that information is just good to have in front of 
you.
    The second is a study that has just been released by 
Professor West at Brown University, in which they focused on a 
survey of 1,800 public Web sites, State, local and Federal, and 
they found in roughly 2 percent of those Web sites advertising 
is allowed. This would be obviously the State and local sites.
    So advertising is taking place on government Web portals at 
the State and local level; again, a reference point and perhaps 
the two studies can shed some information.
    Mr. Horn. Well, without objection we will have those 
studies put in the record at this point.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4926.088
    
    [GRAPHIC] [TIFF OMITTED] T4926.089
    
    [GRAPHIC] [TIFF OMITTED] T4926.090
    
    [GRAPHIC] [TIFF OMITTED] T4926.091
    
    [GRAPHIC] [TIFF OMITTED] T4926.092
    
    [GRAPHIC] [TIFF OMITTED] T4926.093
    
    [GRAPHIC] [TIFF OMITTED] T4926.094
    
    [GRAPHIC] [TIFF OMITTED] T4926.095
    
    [GRAPHIC] [TIFF OMITTED] T4926.096
    
    [GRAPHIC] [TIFF OMITTED] T4926.097
    
    [GRAPHIC] [TIFF OMITTED] T4926.098
    
    [GRAPHIC] [TIFF OMITTED] T4926.099
    
    [GRAPHIC] [TIFF OMITTED] T4926.100
    
    [GRAPHIC] [TIFF OMITTED] T4926.101
    
    [GRAPHIC] [TIFF OMITTED] T4926.102
    
    [GRAPHIC] [TIFF OMITTED] T4926.103
    
    [GRAPHIC] [TIFF OMITTED] T4926.104
    
    [GRAPHIC] [TIFF OMITTED] T4926.105
    
    [GRAPHIC] [TIFF OMITTED] T4926.106
    
    [GRAPHIC] [TIFF OMITTED] T4926.107
    
    [GRAPHIC] [TIFF OMITTED] T4926.108
    
    [GRAPHIC] [TIFF OMITTED] T4926.109
    
    [GRAPHIC] [TIFF OMITTED] T4926.110
    
    [GRAPHIC] [TIFF OMITTED] T4926.111
    
    [GRAPHIC] [TIFF OMITTED] T4926.112
    
    [GRAPHIC] [TIFF OMITTED] T4926.113
    
    [GRAPHIC] [TIFF OMITTED] T4926.114
    
    [GRAPHIC] [TIFF OMITTED] T4926.115
    
    [GRAPHIC] [TIFF OMITTED] T4926.116
    
    [GRAPHIC] [TIFF OMITTED] T4926.117
    
    [GRAPHIC] [TIFF OMITTED] T4926.118
    
    [GRAPHIC] [TIFF OMITTED] T4926.119
    
    Mr. Horn. What have you learned in looking at those? 
Because there has been a big discussion within the educational 
systems K through 12, should there be advertising in the 
classroom, this kind of thing.
    Mr. McClure. We haven't really looked at it to any great 
extent. It is something that obviously I think is worthy of 
people to examine and see how advertising policies are being 
pursued and the ramifications of it. Quite honestly, I think it 
is a growing topic of importance as they look at the funding 
for those portals in the future.
    Mr. Horn. Does the gentleman from Texas, Mr. Turner, want 
to wind it up?
    Mr. Turner. Thank you, Mr. Chairman. I just wanted to get 
some comments perhaps from Dr. Brewer, maybe Mr. Barram, to 
give us some sense of where this may lead us. I have the sense 
this was just a first step. Obviously we have access now to 
information from all agencies of government at one site through 
this search engine, and yet the ultimate goal is to make 
government more consumer friendly to allow the citizens to do 
business with their government over the site, and how do you 
view this as an element of moving us down that road more 
rapidly than we otherwise would be able to go?
    Mr. Brewer. You are right to ask both of us. I can speak to 
our part. I think the most important thing here is that we have 
now got agencies thinking about how they appear on the Web, how 
they want to be found and how they want to interact with the 
citizens. Frankly, that has never happened before, and I think 
that's just incredibly powerful.
    So there are lots of things I think that could be better 
about FirstGov and Fed Search and the sites themselves. It 
increases in relevance, a more longterm relationship with 
citizens rather than just their each individual visit. Of 
course, that has privacy implications so it has to be done with 
their knowledge. But I think that's the kind of trust you want 
to build with the citizens, where they do trust you with some 
of their private information because they want you to know who 
they are.
    So I think it is a very powerful road we can follow, but it 
starts with people caring, people in government and other 
places as well, caring about how citizens interact with the 
government. I think this is the most important effect of 
FirstGov so far, and in the long-term its main effect will be 
this just getting people to ask the questions. I think where 
the answers go, I don't know but, boy, I am glad we are asking 
the questions.
    Mr. Barram. Can I add to that? On Flag Day of 1996 at GSA 
we gave everybody access to the Internet. We decided to do it 
and did it in a month or 2 months. Many people said what is 
that all about? And if you look now 4 years later, the people 
of GSA who have been using this technology, because it was the 
tool in the last part of the 20th century and now in the first 
part of this one, it was essential to the kind of productivity 
we wanted. People are doing the same things better but much 
more--and quicker, but much more they are doing totally 
different things; interacting, communicating, playing, being 
productive in totally different and better ways.
    So agencies are going to get better, as Eric said. I think 
we will see a real push toward more citizen-centric 
interaction, interface with their government and this will be a 
major tool.
    I was in Oregon this weekend for a wedding for my nephew, 
and one of my other sisters-in-law home schools her three 
children and she is very excited about FirstGov as a way to get 
to lots of information quickly. Her kids are very good at using 
this technology and it is a wonderful tool for them.
    I am not sure I thought about that 90 days ago. So we are 
going to see lots of things like this happen where people are 
able to use the technology better and get to the government 
information better, and I think we will be very happy about 
that.
    The most important thing is for us to do it, make it better 
and learn what people need and make it available.
    Mr. Horn. Well, Dr. Brewer, we thank you for your 
generosity and for getting some action in this area, and I am 
sure it will be followed throughout the country.
    I want to now thank the staff that put this hearing 
together from both the majority and the minority. J. Russell 
George, staff director, chief counsel; and to my left, your 
right, for this particular hearing Randy Kaplan, counsel; Ben 
Ritt, detailee from the General Accounting Office on our staff; 
Bonnie Heald, director of communications; Bryan Sisk, the clerk 
who moves those mics around and gets our ears back in sync; 
Elizabeth Seong, staff assistant; George Fraser, Trevor Pedigo, 
and Rachael Reddick, interns. You can see in the summer and 
fall we get a lot of great interns, almost at nothing, but 
experience is a lot. With the minority staff, Trey Henderson is 
the counsel for Mr. Turner; Jean Gosa, minority clerk; and the 
court reporter this morning is Mindi Colchico. We thank you for 
all you have done over the years with us.
    So with that, we are now adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4926.120

[GRAPHIC] [TIFF OMITTED] T4926.121

[GRAPHIC] [TIFF OMITTED] T4926.122

[GRAPHIC] [TIFF OMITTED] T4926.123

[GRAPHIC] [TIFF OMITTED] T4926.124

[GRAPHIC] [TIFF OMITTED] T4926.125

[GRAPHIC] [TIFF OMITTED] T4926.126

                                   <all>

</pre></body></html>
